     UNITED STATES DEPARTMENT OF AGRICULTURE

             OFFICE OF INSPECTOR GENERAL



    STATEMENT OF THE HONORABLE PHYLLIS K. FONG

                  INSPECTOR GENERAL


                        Before the

COMMITTEE ON HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS

                  UNITED STATES SENATE



                     MARCH 5, 2009
Good morning, Chairman Lieberman, Ranking Member Collins, and Members of the
Committee. Thank you for inviting me to testify on the role of the Inspector General (IG)
community in overseeing Federal expenditures and operations under the American Recovery
and Reinvestment Act of 2009 (Recovery Act). 1 I am testifying today in my dual capacities as
Inspector General at the U.S. Department of Agriculture (USDA) and Chair of the Council of
the Inspectors General on Integrity and Efficiency (Council). Additionally, as IG at USDA, I am
statutorily appointed to serve with nine other IGs on the Recovery Accountability and
Transparency Board (Board) that was created by the Act. I am honored to serve in these
multiple capacities and have the opportunity to contribute to our mutual efforts to improve the
operations and integrity of the Federal Government.


Let me briefly also express my thanks to the Chair, Ranking Member Collins, and Senator
McCaskill for soliciting the views of the IG community during the development and passage of
the Act. My colleagues and I appreciate your affording us the opportunity to comment upon
the practical impact of the provisions related to the Accountability Board and whistleblower
complaints, among others. Further, your support for increased resources for IGs to meet our
expanded responsibilities under the Recovery Act was of considerable assistance.


The Recovery Act creates a vital oversight role for the IG community, and I can assure the
Committee that the IGs at the agencies that are receiving stimulus funds are actively engaged
in planning to meet their responsibilities. Our emphasis is on taking proactive measures to
make sure the vast public funds involved are properly expended and utilized. At this time, there
are still questions and implementation issues that need to be explored and resolved with
respect to how the relevant oversight bodies involved—IGs, Government Accountability Office
(GAO), and the Board—can best work together to perform the rigorous oversight desired by
Congress and the public.              As requested by the Committee, my testimony today will address
the new responsibilities imposed by the Recovery Act on IGs; the IG community’s current
stimulus oversight activities; USDA OIG’s oversight plans for the Recovery Act funds that
support USDA stimulus activities; and some “lessons learned” from the community with
respect to supplemental appropriations for expedited Federal programs and operations.

1
    H.R. 1, Public Law 111-5, February 17, 2009.


                                                                                                  1
I. New IG Responsibilities Pursuant to the Recovery Act


The Recovery Act creates new responsibilities for Federal IGs in three main areas: oversight of
agency stimulus-funded programs, participation on the new oversight accountability board, and
investigations of whistleblower complaints.     My testimony will discuss some of the most
challenging elements of these new responsibilities for the IG community.


1. Oversight of Stimulus Expenditures


Under the IG Act, IGs generally have broad oversight responsibility and authority for their
parent entities’ programs and operations.      Recovery Act-funded activities at each Federal
entity have become significant additions to this portfolio.     IGs are giving high priority to
oversight of stimulus activities due to the Act’s requirements for mandatory reviews,
investigations, reports, and—most importantly—the joint governmental and public interest in
ensuring that expedited stimulus funds are spent properly. Agencies must promptly develop
plans for allocating stimulus funds, including identifying and assessing any risks regarding the
responsible disbursement and ultimate usage of the monies involved and appropriate risk
mitigation strategies. IGs must also report on funds spent on our oversight activities.


Section 1514 of the Act mandates that an IG shall review, as appropriate, any concerns raised
by the public about specific investments of stimulus funds. Unless criminal proceedings are
involved, the OIG must relay its findings immediately to the agency head and post them on the
OIG’s web site (subject to privacy laws). The Recovery Act also provides new authority to
OIGs to examine records and interview the employees of entities that receive stimulus funds.
At this time, the volume and substance of the public complaints individual IGs will receive
regarding stimulus activities—and the level of OIG resources required to address them—is
difficult to predict.   It is certainly an element of the Recovery Act, however, that the IG
community must plan for and closely monitor.




                                                                                              2
2. The Recovery Accountability and Transparency Board


The Recovery Act creates a new Recovery Accountability and Transparency Board to
coordinate and conduct oversight of stimulus programs. The Board is comprised of 10 IGs and
is chaired by the Honorable Earl Devaney, IG at the Department of Interior. The Board has a
number of functions, and is required to coordinate its work with individual IGs and the Council
to avoid duplication of effort. Congress provided the Board with extensive audit and program
review powers, but not investigative authority; allegations requiring investigations of a criminal
nature must be referred to the appropriate OIG. The authorization for the Board expires on
September 30, 2013.


During the Recovery Act’s legislative development, there was extensive discussion in the IG
community about the potential impact of the Board on OIG activities, such as whether
unintended difficulties or interference with traditional IG independence and responsibilities
would occur. We appreciate the assistance rendered by Committee Members in removing or
modifying various provisions that were of concern regarding IG independence and the potential
for conflict between the Board and IGs. In particular, we note that all of the Board’s members
are now IGs, a highly experienced IG has been appointed as Chairman, the Recovery Act
clearly provides that each IG makes the final decision on audits and investigations to be
pursued, and the Board and the Council are required to coordinate their activities. I therefore
anticipate that the IG community will be able to forge a productive working relationship with the
Board as it takes up its oversight responsibilities.


3. Assessing Whistleblower Complaints Related to Stimulus Activities


The third element of the Recovery Act that may significantly impact the IG community is the
new protections from reprisal provided to whistleblowers who are State and local government
employees or contractors.      When such individuals present Federal officials with information
they believe is evidence of gross mismanagement, waste, or illegality related to stimulus




                                                                                                3
expenditures, IGs are required to investigate any reprisal complaints that may result. 2 IGs are
required to complete these whistleblower investigations within 180 days, subject to certain
extensions. The Act’s whistleblower mandates present a broad new area of potentially
substantial investigative obligations for IGs regarding non-Federal employees and contractors.
At this time, it is too early to predict the administrative and budgetary effects of these
requirements as stimulus funds flow to States and localities. As the IG community gains
experience over the course of the Act in meeting the whistleblower mandates, we will keep the
Committee informed should any substantive procedural or resource allocation concerns arise.


II. Initial IG Community Actions in Response to the Recovery Act


The Council of Inspectors General on Integrity and Efficiency


Due in large part to the efforts and legislative determination of Members of this Committee, the
Inspector General Reform Act of 2008 3 created the Council of Inspectors General on Integrity
and Efficiency (Council) which is comprised of Federal IGs and senior-level Federal officials
from the Federal Bureau of Investigation, Office of Government Ethics, and Office of Special
Counsel, among other entities. The Deputy Director for Management of the Office of
Management and Budget (OMB) serves as the Executive Chair of the Council, and I am
privileged to have been elected as the IG that serves as Chair of the Council for the next 2
years. Among the functions and duties stipulated by Congress for the Council are identifying
and reviewing areas of weakness and vulnerability in Federal programs with respect to fraud
and mismanagement and developing plans for coordinated Governmentwide activities that
address such problems and promote efficiency in Federal programs and operations.


While each IG has unique challenges based on the nature of his/her agency’s programs, a
core purpose and value of the Council is to facilitate prompt information sharing between IGs
about varying oversight approaches and experiences.                           A priority for me as Council Chair
during the Recovery Act’s implementation will be to continually explore effective, common

2
  The Act provides exemptions for OIGs to decline to initiate an investigation in circumstances of frivolous complaints,
concurrent administrative/judicial proceedings, and lack of connection to stimulus funds, among others.
3
  Public Law 110-409, October 14, 2008.


                                                                                                                           4
oversight approaches among IGs, and for our community to emphasize preventive measures
that can be taken before public funds are expended.


IG Community Coordination with OMB and GAO on the Recovery Act


As part of our efforts, the Council worked with OMB to provide input on OMB's draft
implementing guidance to agencies for their Recovery Act activities. The guidance contains
critical steps that Federal agencies must immediately take to meet the objectives of
transparency and accountability for Recovery Act monies. The Council’s comments to OMB
generally sought to enhance and fine tune the guidance’s oversight requirements and more
clearly distinguish the role of IGs from that of the managers of the programs being funded by
the Recovery Act. Among the noteworthy changes recommended by CIGIE and adopted by
OMB were: (1) extending the Federal Acquisition Regulation rule regarding “self-reporting” of
fraud by contractors to Recovery Act grantees and loan recipients; (2) requiring agencies to
expedite any corrective actions necessary for weaknesses and deficiencies that have been
disclosed by prior audits and investigations and are relevant to imminent Recovery Act
activities; and (3) providing that agency web sites have recovery program pages that link
directly to their OIG web pages so that the public can contact OIGs directly about concerns
related to stimulus programs. The Council and I will continue to work closely with OMB as it
issues additional implementation guidance concerning the stimulus funds received and
disbursed by Federal agencies.


With respect to IG coordination with GAO, I believe that most OIGs have excellent working
relationships with their GAO counterparts in carrying out oversight activities. This is certainly
the case for my agency, USDA OIG; we work very closely and productively with the GAO staff
involved in agriculture, nutrition, and natural resources issues. These relationships have been
built over many years, as the IG Act requires IGs to coordinate with GAO to reduce potential
duplication in our respective audits and program reviews.


The IG Stimulus Working Group (discussed below) recently met with Acting Comptroller
General Gene Dodaro and senior GAO officials to discuss community approaches to meeting



                                                                                               5
our new responsibilities under the Recovery Act. One issue of paramount concern to all is the
need to ensure that stimulus funds are properly spent as they flow from Federal agencies to
the State and local levels. There is general recognition that the traditional oversight provided
by the Single Audit Act and OMB Circular A-133 will not be sufficient to provide timely and
effective feedback on stimulus programs this year. While non-Federal entities are required to
have an annual audit of their Federal awards and funds, the results are not available until at
least 9 months after their fiscal years end. It is therefore necessary for the Federal oversight
community to develop more timely approaches to overseeing the massive flow of money to
State and local entities. IGs whose agencies have significant program dollars going to non-
Federal recipients have already started to reach out to their State and local counterparts and to
perform risk analyses of those programs to determine the types of testing that should be done.
We also understand that GAO will be working closely with these governments to follow the flow
of program funds and to ensure that these entities report their activities in a timely and
consistent way. As IGs, we will need to coordinate our own reviews of program effectiveness
closely with GAO to ensure that there are no gaps in our coverage. We believe that this is an
opportunity for further productive collaboration between the IG community and GAO. 4


Sharing Oversight “Best Practices”: The Stimulus Oversight Working Group

The Council has created a Stimulus Oversight Working Group comprised of the 23 IGs whose
parent agencies are receiving Recovery Act funds. I believe this Stimulus Working Group can
serve as an excellent forum for IGs directly responsible for stimulus oversight to discuss and
share strategies, best practices, and other proactive measures to provide rigorous oversight of
stimulus activities.           The Stimulus Working Group recently held its first meeting to discuss
common concerns and oversight practices being implemented community-wide. I would like to
present the Committee with an overview of the information these IGs have provided about their
Recovery Act oversight planning.




4
    The related issue of OIG liaison with State and local audit entities is further discussed in Section V of this statement.


                                                                                                                                6
III. Proactive Measures: IG Community Plans for Recovery Act Oversight


To inform the Committee about the specific stimulus oversight measures currently being
considered or utilized, my office surveyed the IGs participating in the Stimulus Oversight
Working Group. We asked these OIGs to provide brief responses on three aspects of their
planning regarding the Recovery Act programs and operations under their jurisdiction. They
were (a) provide examples of preventive and proactive stimulus oversight measures that the
OIG is taking at this time; (b) provide examples of longer term stimulus oversight measures
being planned; and (c) identify challenges the OIG faces in implementing its stimulus oversight
activities. Below is a summary of some of the measures that are actively being implemented
or considered by various Working Group IGs and some of the challenges noted by a number of
the respondents. 5

           A. Preventive and Proactive Measures Being Taken Now

Communicating with Senior Managers at the OIG’s Parent Agency/Department

    •   Establish Recovery Act steering committees (or partner with) agency officials regarding
        oversight activities and reporting.
    •   Evaluate agency stimulus spending, implementation plans, and performance measures.
    •   Evaluate unimplemented recommendations and provide technical advice, best practices,
        and guidance to agencies in areas targeted for stimulus spending.

Heightening Fraud Awareness in Recovery Act Assistance Programs

•       Provide fraud awareness briefings and training to grant administrators and grantees.
•       Determine what the agencies and program administrators are doing to reduce the risk of
        fraud, waste, error, and misuse relevant to stimulus activities.

Reviewing Loan, Grant, and Contract Activities

•       Monitor grant planning activities and conduct pre-award audits of recipients.
•       Prioritize audit efforts based on existing program risks and amount of supplemental
        stimulus funding.
•       Adjust in process OIG audits (such as expanding/expediting them) to monitor supplemental
        funding.

5
  Each IG has the authority to determine his/her own respective oversight plans and actions and can best respond
to inquiries about the details and status of their particular Recovery Act activities.


                                                                                                               7
       B. Longer-Term Oversight Measures

•   Obtain the appropriate level of additional audit and investigative staff via hiring, temporary
    employees, and the use of contract personnel.

•   Develop and implement risk-based audit and investigation plans for stimulus funded grants,
    contracts, and agency programs and their respective financial management systems.

•   Initiate criminal investigations based on Hotline complaints, agency referrals, audit work,
    and other sources.

•   Conduct outreach to the external audit community (CPAs and State and local audit
    agencies) to provide technical assistance for their required audit oversight.

•   Utilize data analysis and data matching to target programs receiving Recovery Act funding
    to look at eligibility issues and identify potential fraud, etc.

•   Track agencies’ compliance with the transparency requirements of the Recovery Act and
    verify data quality reports issued by agencies and posted to “Recovery.gov”



       C. Challenges Facing OIGs for Recovery Act Oversight

•   Meeting the oversight requirements of the Recovery Act while continuing to conduct other
    statutorily mandated and high-profile work such as Federal Information Security
    Management Act (FISMA), financial statement audits, and unscheduled congressional and
    agency requests.

•   Meeting staffing needs, training new hires, and obtaining contractor assistance with
    experience in the targeted program areas.

•   Ensuring that funds passed to State and local governments are adequately tracked.

•   The inability to perform timely computer data matching across Federal agencies.

•   Ensuring timely reporting of audit, inspection, and investigative issues.

•   Identifying and monitoring critical Information Technology systems that are used to provide
    transparency.

•   Monitoring agencies’ internal control structures and timing audits when funds are being
    disbursed.




                                                                                                     8
IV. USDA OIG’s Preliminary Oversight Plan for USDA’s Stimulus Activities


While I am increasingly engaged in Governmentwide oversight issues and organizations on
behalf of the Council and the Oversight Board, my primary responsibility is my service as IG at
the Department of Agriculture. USDA OIG is directly responsible for continuous oversight of
USDA’s vast programs and operations; in fiscal year 2008, the Department had expenditures
of approximately $95 billion and approximately 90,000 full-time employees.       USDA alone
received $28 billion in Recovery Act funding for a broad array of Department programs and
operation, ranging from rural development programs, nutrition assistance, and watershed
activities, to wildfire management and broadband activities. Nine separate USDA programs or
accounts received at least $300 million in supplemental funding, and the Supplemental
Nutrition Assistance Program (SNAP)—formerly known as the Food Stamp Program—
received $20.1 billion for increased benefits and administrative expenses.     The major new
program expenditures at USDA utilizing Recovery Act funds will present significant oversight
challenges for our OIG.


We have developed a number of actions to enable OIG to provide timely and effective
oversight of USDA’s Recovery Act expenditures. Our oversight plan is of course preliminary,
since we will regularly make adjustments and shift our resources as the numerous USDA
program agencies involved develop their own plans for stimulus activities and begin to spend
the monies.


In addition to the efforts described below, we are conducting immediate outreach to the
Department—including meetings with the top officials of the relevant USDA agencies—to
advise them of OIG’s plans and to solicit their input on where our efforts would be most
effective. We are providing them with information on oversight “best practices” as they come
to our attention. For example, we have already provided USDA agencies with a recently
issued guide to grant oversight and best practices for combating grant fraud.     Summarized
below are the major elements of our preliminary USDA OIG oversight plan, organized by audit
and investigative activity.




                                                                                             9
      A. Recovery Act Oversight at USDA: Audits


We will focus on key elements such as whether USDA agency officials have established
proper internal control procedures and compliance operations, as well as review whether
participants in stimulus-related programs meet eligibility guidelines. OIG’s audit work will be
conducted in multiple phases based on USDA’s Recovery Act activities and expenditures.


Phase 1:
   (1) In recent years, OIG has made audit recommendations on virtually every USDA
      program that will receive stimulus funding. We are now assessing the extent to which
      USDA agencies have implemented our recommendations to determine whether
      program weaknesses have been corrected. In cases where OIG’s recommendations
      were not agreed-to or not fully implemented, we will work with agency officials to identify
      the corrective actions necessary to ensure effective controls on USDA’s Recovery Act
      expenditures.


   (2) We are also considering expanding the scope of audits that are already in process or
      planned for USDA programs receiving stimulus funds. Among them are reviews of
      Farm Service Agency oversight of farm loans; Rural Development (RD) programs for
      single family housing, business/industry loans, and water and waste disposal programs;
      the Forest Service’s wildland firefighting program; and the Food and Nutrition Service’s
      SNAP program.


   (3) We are expediting the completion and release of several audits related to Recovery Act-
      funded programs, including RD’s broadband program and the rehabilitation of flood
      control dams by the Natural Resource Conservation Service.


Phase 2:
   (1) We will design new audits to specifically review various aspects of the programs
       receiving stimulus funding.




                                                                                              10
    (2) We will review each USDA agency’s Recovery Program Plan and then develop
       targeted oversight initiatives.


    (3) Our newly formed Data Analysis and Data Mining group will begin its stimulus related
       oversight by analyzing data pertaining to RD’s Direct Single Family Housing Loan
       Program.


Phase 3:

    We will evaluate the determinations USDA agencies make about the effectiveness of their
    stimulus activities by analyzing their performance measures with respect to outcomes.


   B. Recovery Act Oversight at USDA: Investigations

Our investigative efforts for the Recovery Act will emphasize preventing and identifying fraud;
initiating timely investigations when potential criminal activity occurs; and responding to the
new sources of whistleblower complaints according to the Act’s benchmarks.         Thereafter,
Investigations will work with U.S. Attorneys and States Attorney General Offices to prosecute
violators and seek asset forfeiture when appropriate.

Phase 1:
  (1) OIG agents will increase the fraud awareness briefings we conduct for agency
      personnel and distribute information to program stakeholders on our investigative
      capabilities and the avenues available for citizens to report stimulus-related fraud. OIG
      fraud alert memoranda to USDA agency personnel will highlight fraud schemes
      attempted in other Federal entities to raise awareness levels.


   (2) Our National Computer Forensic Division will assist in fraud identification related to
      USDA’s stimulus programs, such as matching our audit data mining results against
      external data bases.




                                                                                            11
  (3) We will actively participate on national and regional task forces such as the Contract
     and Procurement Task Forces and the Mortgage Fraud Task Forces.                      These
     organizations increase OIG’s ability to identify fraud and partner with other
     Federal/State investigators and prosecutors.


  (4) OIG will continue close liaison with USDA agencies to identify fraudulent activities and
     coordinate with their compliance and investigations units for joint investigations, as
     appropriate.


  (5) We will use OIG’s Hotline as a source of information on potential criminal activity
     affecting USDA’s stimulus activities.       Each month, our Hotline staff receives
     approximately 275 contacts and performs an initial assessment of the complaints and
     allegations to determine the level of OIG investigative inquiry that is warranted.    OIG
     will separately track complaints regarding Recovery Act funding and related
     whistleblower reprisal complaints.


Phase 2:
  (1) After assessing the results of the initiatives described above (and information revealed
     by our stimulus-related audit work), we will open criminal investigations as appropriate.
     Based on our experiences with emergency/supplemental USDA funds provided for Gulf
     Coast hurricane relief activities, we anticipate significant investigative work involving
     SNAP fraud.


  (2) Upon assessing our investigative results for USDA’s stimulus activities, we will work to
     ensure that entities involved in criminal or serious misconduct are held accountable via
     criminal and/or civil prosecution, asset forfeiture, agency fines, and administrative
     sanctions (suspension/debarments, etc.).




                                                                                             12
Reporting OIG’s Recovery Act Activities and Results

The closing comment I would like to offer regarding our preliminary oversight plan at USDA
OIG pertains to our recognition of the importance of timely reporting by IGs about stimulus-
related activities. Fulfilling our reporting obligations under the Recovery Act will assist agency
heads and congressional oversight committees in carrying out their responsibilities. We will
alert USDA officials to program integrity and efficiency problems as quickly as possible to
expedite corrective actions. We will incorporate the Recovery Act’s new requirements
regarding whistleblower complaints into our semi-annual reports to Congress. As provided by
OMB guidance, OIG will separately report our use of Recovery Act monies and other funds for
stimulus-related activities in our reports and “Recovery.gov” submissions.


V. Lessons Learned: Past OIG Oversight of Expedited Federal Expenditures


As requested by the Committee, I will discuss the IG community’s experiences from past
oversight of Federal expenditures. While the amount and scope of the Recovery Act’s
expenditures are unprecedented, the multi-agency, expedited nature of the Federal response
to Hurricane Katrina resulted in important “lessons learned” for IGs and program officials that
could apply to stimulus-funded activities.


Critical to the successful performance of the IG community in providing effective oversight of
Hurricane Katrina response activity was the systematic coordination and utilization of the skills,
resources, and experience of a broad array of OIGs. Led by the Department of Homeland
Security’s (DHS) OIG, those OIGs whose agencies were involved in the hurricane recovery
efforts established an oversight plan for mitigating crisis procurement risks, managing the
broad scope of oversight work, and overseeing contracts. The OIGs refined the plan into an
audit coordination model that outlined which offices would focus on specific Federal activities
during the different phases of recovery efforts. Audit personnel from nine OIGs formed a
Hurricane Katrina Contract Audit Task Force to coordinate efforts. The IG community also
developed an investigation coordination model to address how case referrals and
investigations would be managed.



                                                                                               13
The IGs involved in Katrina recovery oversight also coordinated their efforts with other law
enforcement agencies to ensure that criminal activity was investigated and prosecuted. The
Department of Justice created a Hurricane Katrina Fraud Task to investigate, prosecute, and
deter fraud from any domestic natural/manmade disaster. 6 According to DHS OIG, the task
force command center referred 21,000 complaints to law enforcement and brought Federal
charges against more than 900. On the audit side of the community, OIGs providing Katrina-
relief oversight completed more than 150 audits that resulted in substantial monetary results
(questioned and unallowable costs, etc.) for the Government and taxpayers. 7


The IG community provided a complete discussion of our lessons learned from the Gulf Coast
hurricanes in an October 2006 report to Congress. 8 For the purposes of today’s hearing, I will
briefly highlight some of the more significant elements my colleagues compiled for the
Committee as you begin to explore effective oversight practices for the Recovery Act.


    9 Efficacy of Risk Management Activities
IGs have found that programs that have existing problems managing risk in their grant and
procurement processes will experience significant deficiencies in effectiveness when they try
to manage and spend large increases in funds in a short period of time. The staffing and
infrastructure of these programs are not equipped to properly manage rapid and large funding
increases.      OIGs should review agency risk management activities and internal controls
relevant to the management of the Recovery Act’s supplemental and expedited funding.


    9 State and Local Liaison
The Committee has aptly expressed an interest in the accountability of funds as they flow from
the Federal to State and local entities. The Recovery Act brings increased challenges to
Federal IGs to oversee the flow of funds at the Federal level (through the awards of contracts,
grants, loans, etc.) and then to follow the funds as they flow to the State and local levels.
Similar to Gulf Coast hurricane relief measures, a large portion of the Recovery Act’s funding

6
  Based in Baton Rouge, Louisiana, it is now known as the National Center for Disaster Fraud. More than 20 Federal
agencies are located at the command center.
7
  For example, DHS-OIG reported $197 million in questioned costs pertaining to hurricane relief activities through FY 2008.
8
  The President’s Council on Integrity and Efficiency – Oversight of Gulf Coast Hurricane Recovery: A Semiannual Report
to Congress, October 2006.


                                                                                                                        14
will be passed through State and local governments. Proactive and continuing communication
and coordination between IGs, GAO, and the Board with State and local audit communities is
vital. Developing audit response plans with state and local audit partners has proven effective
for Federal IGs.             Resource-draining duplication must be avoided to the greatest extent
possible. 9


       9 Information Data Sharing
Interagency data sharing and coordination is important when funds are spent in interagency
efforts.       However, Federal law on agency computer matching limits the ability of IGs to
promptly share data. 10 The IG community certainly recognizes the importance of computer
matching safeguards, but a number of OIGs have found that current restrictions hampered
past efforts to prevent and pursue fraud. Members of the Council have discussed the concern
that the absence of computer matching agreements forced the Hurricane Katrina Fraud Task
Force to rely on manual record searches to detect improper payments and fraud. The problem
identified was that IG oversight practices can encounter delays and obstacles due to the need
to gain cooperation from the managers of agency database systems. Members of the Council
have discussed this concern with Committee staff and welcome further consideration of this
issue.


       9 Training
Part of the Council’s mission is to ensure that IG community oversight personnel are properly
trained, and a lesson from the Katrina relief effort was that OIG personnel may need advanced
training in specialized programs.                   Members of the community will need to evaluate the
particularized training needs of their offices as they assess the audit and investigative
oversight required for Recovery Act activities.




9
     See the related discussion of IG and GAO stimulus oversight involving State and local entities in Section II.
10
     The Computer Matching and Privacy Protection Act of 1988, Public Law 100-503.


                                                                                                                     15
   9 Staffing
In working to provide OIG staff necessary for the audits and investigations desired for
expedited Recovery Act activities, IG managers must be mindful to maintain the proper level of
continuing oversight for their parent agencies or Departments’ recurring programs and
operations.


This concludes my testimony. I want to thank the Committee for the opportunity to share my
views and those of the IG community on these issues. I would be pleased to address your
questions.




                                                                                           16
